                               Department of the Interior
                               Office of Inspector General


                                     AUDIT REPORT




       MINERALS MANAGEMENT SERVICE’S
         COMPLIANCE REVIEW PROCESS

Report No. C-IN-MMS-0006-2006                                                      December 2006



  This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and (b)(6)
  of the Freedom of Information Act.
                                 EXECUTIVE SUMMARY

 WHY WE DID THIS AUDIT                 WHAT WE FOUND
 We conducted this audit at            Compliance reviews can serve a useful role as part of the
 the request of the U.S.               Minerals Management Service’s (MMS) Compliance and
 Senate Committee on                   Asset Management (CAM) Program. Compliance reviews
 Energy and Natural                    are a legitimate tool for evaluating the reasonableness of
 Resources. The audit                  company-reported royalties and allow a broader coverage of
 addresses concerns raised by          royalties while requiring fewer resources than audits.
 the news media and the
                                       However, compliance reviews do not provide the same level
 State and Tribal Royalty
 Audit Committee (STRAC)               of assurance as an audit and therefore should only be used in
 about MMS’ increasing use             conjunction with audits in a coordinated compliance
 of compliance reviews as              strategy.
 part of its CAM Program.
                                       While we concluded that compliance reviews can be an
 Historically, MMS has                 effective part of MMS’ CAM Program, our audit disclosed
 relied on audits to verify            weaknesses that may prevent MMS from maximizing the
 companies’ reported                   benefits of the compliance reviews. These weaknesses
 royalties. In the late 1990s,         related to management information, the compliance review
 MMS began reengineering               process, and the performance measures used to evaluate the
 its royalty verification
                                       CAM Program’s effectiveness.
 processes, which included
 the establishment of the
 compliance review process.            Management Information
 A compliance review is less
 intensive than an audit and           MMS lacks reliable information for managing the CAM
 is designed to determine the          Program. Audit and compliance review data are maintained
 reasonableness of reported            in multiple information systems that we found to be
 royalties without obtaining           inaccurate and incomplete. As a result, MMS cannot:
 detailed source
 documentation or                           ¾ effectively use existing systems for day-to-day
 conducting site visits.                      management and reporting purposes;
 AUDIT OBJECTIVES
                                            ¾ develop an effective strategy for deploying personnel
 Our objectives were to                       and other resources between audits and compliance
 determine (1) whether                        reviews;
 compliance reviews are an
 effective part of the CAM                  ¾ provide accurate information on CAM Program
 Program and (2) whether                      operations and results to stakeholders, including the
 MMS is effectively                           Congress and state and tribal audit organizations;
 managing the compliance                      and
 review process.
                                            ¾ determine the true cost and benefits of compliance
                                              reviews and audits.

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                       Compliance Review Process

                                       We found that MMS developed extensive policies and
                                       procedures for conducting compliance reviews and that
                                       MMS generally followed the guidance. Our audit disclosed
                                       some areas where the compliance review process should be
                                       strengthened. For example:

                                          ¾ Compliance reviews do not adequately evaluate
                                            company-reported volume and allowance data. This
                                            increases the risk that MMS may not detect underpaid
                                            royalties.

                                          ¾ MMS does not always inform companies when
                                            compliance reviews begin. Standard notices would
                                            give greater visibility to the CAM Program and deter
                                            inaccurate reporting.

                                          ¾ MMS’ methodology for establishing threshold
                                            amounts for pursuing potential underpayments is not
                                            consistent and could result in uncollected royalties.

                                          ¾ MMS does not have detailed guidance identifying
                                            when compliance reviews should be referred to audits.

                                          ¾ MMS’ selection process to identify properties for
                                            compliance reviews or audits does not take into
                                            account which companies have the highest risk for
                                            underpaying royalties.

                                          ¾ The ability of state and tribal auditors to conduct
                                            effective compliance reviews is hindered because they
                                            do not have full access to MMS’ automated tools.

                                       Performance Measures

                                       We found that MMS should reassess the CAM Program’s
                                       Government Performance and Results Act performance
                                       measures.

                                          ¾ The compliance index, which attempts to assess
                                            whether companies are paying the proper amount of
                                            royalties, should be eliminated because it is computed
                                            with incomplete data.


                                                     ii

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                          ¾ The compliance coverage measure inappropriately
                                            treats audits, compliance reviews, and royalty-in-kind
                                            analyses equally. Also, the measure’s focus on dollar
                                            coverage results in many of the same companies and
                                            properties being reviewed year after year. MMS
                                            should revise this measure to report separately on each
                                            activity and should modify its CAM strategy to
                                            expand the coverage of companies and properties
                                            subjected to review.

                                          ¾ MMS should also develop new measures that address
                                            the efficiency of its operations.

                                       We made three recommendations to the Director of MMS.
                                       The Director’s response to the draft report, included as
                                       Appendix 2, expressed general concurrence with the
                                       findings and recommendations and provided the actions in
                                       process for implementing the recommendations. MMS
                                       stated that it will provide a final action plan within 30 days
                                       after receipt of the final Office of Inspector General (OIG)
                                       report. The Director’s response included several areas of
                                       disagreement. We agreed with management’s comments in
                                       three areas and revised the recommendations contained in
                                       our draft report concerning activity-based costing and source
                                       document review; we corrected our recommendation
                                       concerning collections to reflect the correct entity within
                                       MMS which holds responsibility for that function.

                                       Concurrent with conducting this audit we also compiled
                                       information to answer additional questions posed by the
                                       U.S. Senate Committee on Energy and Natural Resources.
                                       These questions related to MMS’ auditor positions, the
                                       number of royalty audits initiated by MMS, the adequacy of
                                       MMS’ resources, and the funding for state and tribal audit
                                       organizations. We did not evaluate the substance of the
                                       audits or audit work conducted. Our answers are presented
                                       in Appendices 4 and 5. As noted above, MMS has data
                                       reliability issues related to audit and compliance review
                                       information. Accordingly, our answers are based on the best
                                       available data.




                                                     iii

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                    CONTENTS
Introduction..........................................................................................................................1

Results of Audit ...................................................................................................................3

     MMS Lacks Reliable Management Information ...........................................................4

     Compliance Review Process Does Not Maximize Outcomes .......................................7

     Performance Measures Need Revision ........................................................................10

Recommendations..............................................................................................................13

Appendices

     1     Scope and Methodology ........................................................................................16

     2     MMS’ Response to Draft Report ...........................................................................18

     3     Status of Recommendations...................................................................................31

     4     OIG Response to Questions Posed By the U.S. Senate Committee on
           Energy and Natural Resources...............................................................................32

     5     State and Tribal Audit Organization Funding........................................................36

     6 Related Reviews.....................................................................................................47

     7     Acronyms and Abbreviations ................................................................................50




                                  Cover photo courtesy of Sean Pettersen, OIG
                                                       iv

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                     INTRODUCTION
                                      AUDIT OBJECTIVES
Our audit objectives were to determine:

    ¾ Are compliance reviews an effective part of the Minerals Management Service’s
      (MMS) Compliance and Asset Management (CAM) Program?

    ¾ Is MMS effectively managing the compliance review process?

                                           BACKGROUND
MMS is responsible for collecting, accounting for, and distributing royalties paid by
companies that extract oil, gas, and other minerals from leased federal and Indian properties.
MMS collected $9.9 billion in royalties in FY2005. About 2,600 companies 1 reported and
paid royalties from approximately 27,800 producing leases.

MMS’ CAM Program is responsible for ensuring that companies are accurately reporting
and paying royalties in compliance with applicable laws, regulations, and lease terms. This
is accomplished by conducting audits and
compliance reviews. The CAM Program          A royalty is the landowner’s share of the mineral
is divided into four components:             production. MMS collects royalties either in cash
                                                      (royalty-in-value) or in product (royalty-in-kind).

    •   Onshore Oil and Gas                           Royalties collected from federal properties are
    •   Offshore Oil and Gas                          distributed to other Department of the Interior
    •   Indian Oil and Gas                            bureaus, the Department of the Treasury, and other
                                                      federal agencies. Additionally, state governments
    •   Solids & Geothermal                           receive a portion of royalties from minerals
                                                      produced within their state borders.
The CAM Program had a FY2006 budget
of $42.7 million and employs                     Royalties collected from Indian-owned properties
                                                 are distributed to the applicable tribal governments
approximately 380 personnel. To assist           or individual Indian owners.
in verifying royalties, MMS has
cooperative agreements with audit
organizations representing 11 state and 7 tribal governments. MMS reimburses these
organizations for all of their costs to conduct compliance work. The tribes retain 100
percent of collections resulting from their compliance work, and the states retain a portion
of collections as statutorily allowed, which is generally 50 percent. The State and Tribal
Royalty Audit Committee (STRAC) represents the state and tribal audit organizations in its
coordination with MMS.


1
 A company refers to an organization that pays royalties to MMS. This includes a corporation, partnership,
sole proprietorship, or individual.
                                                     1
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
MMS began a reengineering initiative in the late 1990s to establish a more efficient and
effective process for verifying royalty payments. As part of this reengineering effort, MMS
developed the compliance review process to complement traditional audits and accomplish
a broader coverage of reported royalties. MMS began using compliance reviews in 2000.

A compliance review is an analysis that determines the reasonableness of company
reported royalty and production data. An analyst compares the company reported data to
MMS’ “expected values.” If the reported data are not within a reasonable range, the
variance is pursued with the company. Unlike audits, compliance reviews are not
conducted in accordance with the Government Auditing Standards. Compliance reviews
generally do not obtain and review company source records, review company systems or
internal controls, or result in formal reports. Additionally, compliance review procedures
do not include issuing engagement letters or conducting entrance and exit conferences. In
fact, MMS may not contact companies at all when compliance reviews are conducted
unless discrepancies are found.
                                         THE ROYALTY EQUATION
Compliance reviews and audits
                                     To determine whether royalties have been accurately paid, MMS
are generally conducted for          reviews the four elements of the “royalty equation:”
royalties paid in-value. For
royalties paid in-kind, the          Volume:        Amount of minerals produced and sold.
Royalty-in-Kind (RIK)                Value:         Sales price of minerals produced and sold.
Program is responsible for           Allowances:    Deductions for transportation and processing.
                                     Royalty rate: Landowner’s share of minerals produced and sold.
verifying that the producing
company delivered the correct
volume and the buyer paid the correct contract price. In the mid-1990s, MMS began
exploring the potential for expanding the RIK program and in recent years, has increased
the royalties taken in-kind rather than in-value. In its FY2005 report on the RIK Program,
MMS reported that the value of RIK gas and oil was $3.7 billion.

In January 2006, a New York Times article criticized the effectiveness of the CAM
Program and asserted that MMS undercollected approximately $700 million in gas
royalties in FY2005. Subsequently, the Times raised concerns expressed by STRAC
members about MMS’ increasing use of compliance reviews instead of audits. The U.S.
Senate Committee on Energy and Natural Resources (Committee) requested that our office
and the Government Accountability Office (GAO) look into these issues. This report
responds to the Committee’s request for us to look at the effectiveness of MMS’
compliance reviews. The Committee also requested that we provide answers to specific
questions concerning the number of audits that were initiated since 2000 and the levels of
staffing and funding for those years. Our answers to those questions are addressed in
Appendices 4 and 5. GAO addressed the Committee’s questions regarding the alleged
underpayments of royalties in its June 2006 report “Royalty Revenues: Total Revenues
Have Not Increased at the Same Pace as Rising Oil and Natural Gas Prices due to
Decreasing Production Sold.”

Appendix 1 contains information on the audit scope and methodology and Appendix 6 lists
prior reviews that were related to our audit.
                                              2
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                 RESULTS OF AUDIT
Compliance reviews can serve a useful role as part of the CAM Program. Our research
showed that other federal and private sector entities use similar procedures to verify
reasonableness of reported information. The Internal Revenue Service (IRS), for example,
extensively uses automated procedures to analyze tax returns and has established
“compliance checks” to determine whether taxpayers adhere to recordkeeping and
reporting requirements. When properly designed and implemented, compliance reviews
can effectively evaluate the reasonableness of company-reported royalties. For example,
one compliance review recovered $4.5 million in underpaid gas royalties for an offshore
property. Compliance reviews also allow greater coverage of the royalty universe while
requiring fewer resources than audits because MMS can:

    ¾ complete compliance reviews in less time and usually cover more reporting months
      than audits,

    ¾ complete compliance reviews without traveling to company locations, and

    ¾ coordinate audits and compliance reviews to use its resources more efficiently.

However, compliance reviews are only a test of the reasonableness of royalties paid and do
not provide the same level of royalty verification as an audit. To a large extent, compliance
reviews rely on company-reported information instead of source documentation. For
example, MMS may consult general industry pricing publications rather than the
company’s specific sales contract to help assess the reasonableness of the company’s
reported value. A compliance review should not be used as a substitute for an audit, but
rather, as one part of a comprehensive compliance strategy that incorporates both activities.

Our audit disclosed weaknesses in MMS’ management of compliance reviews and its
overall CAM Program. Specifically:

    ¾ MMS lacks reliable management information to adequately develop a compliance
      strategy, monitor progress, and assess results of its CAM Program.

    ¾ MMS needs to improve its compliance review process to maximize outcomes.

    ¾ MMS’ performance measures are inadequate and need to be revised.




                                                     3
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
         MMS LACKS RELIABLE MANAGEMENT INFORMATION
MMS lacks the information it needs to adequately manage compliance reviews and its
overall CAM Program. Audit and compliance review data are maintained in multiple
information systems that we found to be inaccurate and incomplete. Specifically, we found
errors in data relating to audit and compliance review tracking and the costs and benefits of
the CAM Program.

CAM PROGRAM DATA ARE NOT ADEQUATELY TRACKED

MMS maintains management information on the CAM Program primarily in its
Compliance Information Management (CIM) system and in four separate databases
maintained by the CAM components to accumulate data for Government Performance and
Results Act (GPRA) reporting. However, we found that these systems do not maintain
certain basic information that could aid CAM Program managers in monitoring the day-to-
day operations and assessing results. We found the following problems:
    ¾ Incomplete and Inconsistent Compliance Review Data in CIM: The CAM
      components were inconsistent in their tracking of compliance reviews in CIM. Two
      CAM components did not have complete information on all compliance reviews
      because data is only entered if the reviews result in monetary findings. The other
      two components recorded all compliance reviews in CIM. This practice prevents
      MMS management from accurately tracking and reporting on all compliance
      reviews.
    ¾ Lack of Status Information on Compliance Work in Progress: The current
      status of each compliance review is not tracked within CIM. Supervisors oversee
      multiple concurrent compliance reviews and some supervisors were managing over
      100 reviews at a time. We found that the information systems do not provide
      sufficient information to allow supervisors to adequately track the progress of
      compliance reviews and manage their workloads. For example, supervisors do not
      have automated access to information such as phase of reviews, anticipated
      completion dates, status of potential issues, and status of communications with
      companies on identified potential underpayments. We found that CIM also lacks
      status information for audits.
    ¾ Original Monetary Findings Not Tracked: CIM contains data fields to record the
      original monetary findings from audits and compliance reviews and the subsequent
      collections from companies for underpayments. However, we found that MMS’
      process for recording collections resulted in the inappropriate substitution of the
      collected amount into the original monetary finding field. This results in the
      amount of the monetary finding equaling collections. MMS should retain data on
      the original monetary findings so that it can assess the effectiveness of audits and
      compliance reviews by determining the recovery rates.


                                                     4
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
    ¾ Inaccurate Data on Completion of Audits and Compliance Reviews: MMS
      could not accurately count the number of audits and compliance reviews that were
      completed each fiscal year. We attempted to independently determine the statistics
      on audit and compliance review completions; however, we found that data fields
      needed to perform these analyses were often not used. For example, the audit
      report issuance field in CIM was frequently not populated. We also found that the
      GPRA databases did not always indicate whether the compliance activity had been
      conducted as an audit or as a compliance review.

    ¾ Offshore GPRA Database Contains Inaccurate and Incomplete Information:
      We found that the Offshore GPRA database contained inaccurate or incomplete
      information that prevented MMS from accurately reporting on performance. This
      database is designed to accumulate data on compliance coverage on properties. We
      found that some properties were identified as having completed compliance reviews
      when those reviews had not been completed. We selected for review five properties
      identified in the GPRA database as having completed compliance reviews. MMS
      had not completed a review for three of those five properties. In fact, one of the
      reviews had not even been started. MMS detected the same issue during an internal
      control review performed in 2006. However, we found that MMS’ corrective
      action plan was not sufficient to ensure the accuracy of the data. Instead of
      requiring that the data be validated, the plan called for the Compliance Review
      Manual procedures to be communicated to all supervisors.

COSTS AND BENEFITS OF AUDIT AND COMPLIANCE REVIEWS ARE UNKNOWN

MMS cannot effectively evaluate the costs and benefits of compliance reviews. A valid
cost and benefit analysis would demonstrate the value of compliance reviews to
stakeholders. STRAC, which represents the state and tribal audit organizations, has
expressed skepticism that compliance reviews are a wise use of limited resources.

MMS could not provide accurate royalty collection data from its CAM Program activities.
MMS provided us with a summary of CAM Program collections for October 1999 to
March 2006 distributed by audits, compliance reviews, and other activities. MMS reported
collections from compliance activities totaling $699 million of which approximately $293
million were attributed to compliance reviews. MMS stated that although it was confident
about the collection totals for each year, it could not vouch for the accuracy of the
distribution to CAM Program activities. We found the following:

    ¾ CIM contained 12,800 lines of unmatched findings and collections that have not
      been reconciled to a specific audit or compliance review. Until these lines have
      been reconciled, collection data are not complete.

    ¾ The data include duplicated collection amounts. We scanned the database and
      selected eight instances of collections for the same amount that appeared to be
      duplicate entries. After further tests and confirmation by MMS, we determined that
      six of the eight were actual duplicate entries. These six entries totaled $2.2 million.
                                              5
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
MMS’ collection data also included
approximately $134 million resulting from                  Qui tam refers to a case filed under the Federal Civil
“qui tam” royalty settlements, representing 19             False Claims Act by a private citizen in the name of
                                                           the U.S. Government, charging that a government
percent of the total reported collections. Qui             contractor or other entity has defrauded the
tam settlements do not directly result from an             government. The person shares in any money
MMS-initiated audit or compliance review                   recovered.
and, accordingly, their inclusion overstates
program accomplishments.

MMS computed a cost benefit analysis in 2006 which showed that compliance reviews
were more cost effective than audits. However, we found that the data used in the analysis
did not always agree with the supporting documentation and that the methodology was
flawed. For example, MMS’ analysis considered only its labor costs instead of total costs
for compliance reviews, which would better reflect the true costs of conducting compliance
activities. Consequently, an uninformed reader of MMS’ analysis could easily be misled
about the true benefits of compliance reviews.

We also found that the cost to conduct an individual audit or compliance review is
unknown because MMS’ activity based costing system does not provide detail at the
individual audit or compliance review level. In addition, MMS cannot provide an accurate
count of completed audits and reviews.

MMS needs to ensure that it has the necessary data to determine the effectiveness of both
audits and compliance reviews. MMS would benefit from activity based costing
information with line item detail at the individual audit and compliance review level.

CONSEQUENCES OF UNRELIABLE DATA

As a result of the issues identified above, MMS cannot:

    ¾ effectively use existing systems for day-to-day management and reporting purposes;

    ¾ develop an effective strategy for deploying personnel and other resources between
      audits and compliance reviews;

    ¾ provide reliable information on CAM Program operations and results to
      stakeholders, including the Congress and state and tribal audit organizations; and

    ¾ determine the true cost and benefits of compliance reviews and audits.

Additionally, we noted that MMS must query multiple information systems to compile
CAM Program data and much of the data are redundant. This is not an efficient business
practice; MMS would benefit from consolidating its information into a single system.

                                                     6
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                            COMPLIANCE REVIEW PROCESS
                            DOES NOT MAXIMIZE OUTCOMES

We found that MMS developed extensive policies and procedures for conducting
compliance reviews and that MMS generally followed the guidance. Our audit disclosed
some areas where the compliance review process should be improved to maximize the
benefits. The following paragraphs describe these areas and present our proposals for
improving the effectiveness of the process.

INSUFFICIENT VOLUME ANALYSIS

To test the reasonableness of reported volumes, MMS compares company royalty reports to
company production reports to identify discrepancies. This procedure does not provide an
independent verification of volume. Without additional analytical steps, MMS has no
assurance that the reported production amounts are reasonable. 2 We identified several
additional procedures that could be performed to verify the reasonableness of oil and gas
volumes. These include:

    ¾ Request companies to provide actual source documents (for example, run tickets,
      tank gauging reports, and oil and gas sales summary statements) for at least one test
      month. This would allow a more precise expected volume amount to be established
      for the property.

    ¾ Coordinate with the Bureau of Land Management’s (BLM) Energy and Minerals
      Program, which maintains inspection and enforcement data that can be used to help
      validate the reasonableness of reported volumes for onshore properties. The
      Program is responsible for overseeing the mineral industry’s exploration,
      development, and production operations on federal and Indian lands. This includes
      regular inspections of production facilities and enforcement of laws, regulations,
      and lease terms. BLM’s Automated Fluid Minerals Support System (AFMSS)
      tracks property and well data for each federal onshore and Indian lease. The
      Compliance Review Manual states that MMS has access to AFMSS, but we saw no
      evidence that MMS used the system in conducting compliance reviews.

    ¾ Use the Liquid Verification System (LVS) and Gas Verification System (GVS) to
      validate the reasonableness of production volumes for offshore leases. These
      systems, which are maintained by MMS’ Offshore Minerals Management Program,
      provide actual oil and gas volume data that are based on company-provided source
      documents. Before implementing this procedure, MMS will need to address known
      data reliability issues with the LVS and GVS. MMS has allocated resources during
      FY2006 to help address this matter.

2
  This issue does not apply to solid mineral leases. The Solids CAM obtains inspection reports from BLM and actual
sales volume reports from the mining company to independently verify the volumes.
                                                          7
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
INADEQUATE ANALYSIS OF ALLOWANCES

MMS performs an important test to determine whether reported transportation and
processing allowance deductions exceed statutory limits. However, source documents are
not obtained to enable a precise determination of what the allowances actually should be
for oil and gas leases. Consequently, other than checking that the maximum permissible
limits were not exceeded, compliance reviews have not assessed whether companies
improperly claimed allowances. Requesting companies to provide actual source documents
for at least one test month would allow a more precise expected amount to be established.

The Compliance Review Manual states that transportation allowances can be checked for
reasonableness by using online sources such as TariffMaster, the Federal Energy
Regulatory Commission (FERC), and the Petroleum Information Grid (PI Grid), but we
saw no evidence that MMS was using them. We did note that one CAM component
instituted revised steps in April 2006 requiring staff to access these information resources.
All CAMs should make this research mandatory as part of the allowance analysis.

In addition, MMS could test the reasonableness of allowances by compiling historical
trends from audit-verified data and comparing this to the reported amounts.

RATIONALE FOR VARIANCE THRESHOLDS NOT DOCUMENTED

Variance thresholds are a critical element of the compliance review process because they
are the determining factor for whether MMS accepts the reported royalties. We found,
however, that MMS could not explain the rationale or methodology used to establish
thresholds for the CAM components. Each CAM
                                                      A variance threshold is the pre-
has set its own threshold which differs               determined percentage or value set by
significantly in the dollar amounts and               each CAM for the acceptable difference
methodology. For example, one CAM applies             between the reported and expected values
both a monthly and annual limit, one has just an      for each element of the royalty equation.
annual limit, and another simply uses                 If the threshold is exceeded, the company
                                                      is first notified to obtain comments about
“professional judgment.” We concluded that the        the findings. If this does not resolve the
[Ex. 2 (high)] threshold at one CAM is set so high    matter, MMS follows up with formal
that significant underpaid royalties may not be       communications, such as an order to pay
collected.                                            or an order to provide records.

MMS needs to fully define the compliance review process, including variance thresholds.
For onshore leases, MMS should work with state and tribal governments in establishing
thresholds because all parties have an interest in the distribution of royalties. When setting
the thresholds, MMS should also weigh the estimated costs of pursuing the variance issue
versus the expected return.




                                                     8
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
GUIDANCE FOR AUDIT REFERRALS NOT DEVELOPED

We found that the Compliance Review Manual does not provide analysts with specific
guidance or trigger points for determining when compliance review issues should be
referred to full scale audits as this decision is left to individual judgment. In addition,
MMS could not provide complete data on the number of compliance reviews that have
been referred because one of the CAMs has not maintained this information. MMS should
develop detailed guidance, such as addressing systemic issues found in compliance reviews
that more appropriately warrant audits and should track all referral actions.

COMPANIES NOT NOTIFIED WHEN COMPLIANCE REVIEWS PERFORMED

For oil and gas properties, MMS does not typically notify the company when a compliance
review is conducted unless a discrepancy is detected that exceeds an established variance
threshold. Accordingly, if no discrepancy results, the company will generally be unaware
that its royalty reporting had been subjected to regulatory oversight.

MMS should notify companies when compliance reviews begin to increase the visibility of
the CAM Program and promote a deterrence effect that may motivate companies to more
accurately report and pay royalties.

COLLECTION FOLLOW UP PROCEDURES NOT ENFORCED

MMS’ Compliance Review Manual does not have procedures to verify that underpayments
identified by compliance reviews are actually billed and collected. For example, our
sample of 20 compliance reviews disclosed one instance where a $12,400 underpayment
issue had not been collected 8 months after the review was completed. This was caused by
a lack of coordination and communication between the compliance review team and the
accounting team responsible for collecting the underpayment.

ADHERENCE TO QUALITY CONTROL PROCEDURES NOT ENFORCED

Our review of a sample of 20 compliance reviews disclosed instances in which MMS did
not follow required procedures in its Compliance Review Manual. Specifically:

    ¾ File summaries did not always provide sufficient detail of the work conducted.

    ¾ Supervisory reviews often were not done or not timely performed.

    ¾ Independent math verifications were not always documented.

MMS needs to address the above issues to ensure the quality of its work.




                                                     9
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
ADDITIONAL RISK FACTORS NOT USED IN COMPLIANCE STRATEGY

MMS employs a risk-based strategy in selecting the properties and companies subjected to
compliance work. This strategy is driven by MMS’ performance measures and focuses on
the properties with the highest royalty dollars. MMS should consider additional risk
factors for selecting companies and properties for compliance work, such as chronic
erroneous reporting and the possibility of fraudulent reporting. In selecting companies for
review, MMS should identify companies that have:

    ¾ historically underreported royalties to MMS or

    ¾ falsely reported information to other federal agencies such as the Environmental
      Protection Agency and IRS.

MMS should also incorporate “fraud indicators” into its compliance review procedures to
help identify intentional false reporting. It could develop the fraud indicators from the
results of prior audits and compliance reviews. MMS should also publicize that it has a
comprehensive compliance program that includes randomly selected company audits. This
would help enhance the deterrence effect by making companies aware that they could be
chosen for audit.

STRAC NOT PROVIDED ACCESS TO ALL COMPLIANCE REVIEW TOOLS

MMS has requested that the state and tribal audit organizations include compliance reviews
as part of their compliance activities. STRAC has expressed reluctance to perform any
work other than audits. STRAC has questioned the benefit of compliance reviews and
some STRAC members question MMS’ legal authority to direct state and tribal audit
organizations to perform compliance review work. However, the Federal Oil and Gas
Royalty Management Act provides legal authorization for MMS to contract with state and
tribal audit organizations to perform a wide variety of compliance work including both
audits and compliance reviews.

Despite MMS’ request for STRAC members to perform compliance reviews, MMS has
been slow to provide the tools necessary to effectively perform them. While MMS has
been implementing Compliance Program Tools (CPT) to help conduct compliance reviews,
it has not yet shared these tools with the states and tribes. MMS has been working to
resolve information security concerns to provide STRAC members access to the data.
STRAC members cannot effectively perform compliance reviews until MMS resolves this
access issue.


                  PERFORMANCE MEASURES NEED REVISION

Performance measures are management tools that provide agencies with the information
they need to assess program accomplishments. MMS has two performance measures

                                                    10
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
related to the CAM Program that we found to be flawed. In addition, MMS needs to
establish measures to evaluate the efficiency of its Program operations.

COMPLIANCE INDEX NOT RELIABLE

The compliance index is intended to indicate overall industry compliance with MMS’
regulations and reporting guidelines and the effectiveness of MMS’ compliance efforts.
The measure calculates the percentage of the predicted revenues from a production year
that is collected within 3 years. For example, the FY2005 performance goal was that by
the end of the fiscal year, MMS would have collected 98 percent of calendar year 2002
predicted revenues.

This measure suggests a high rate of compliance by reporting that MMS collected 98
percent of royalties that should have been paid. Unfortunately, MMS cannot know the total
dollar amount of royalties that should have been paid. Therefore, MMS uses a prediction
of those royalties to calculate the compliance index. MMS’ methodology for predicting
revenues does not provide a valid figure for calculating the compliance index. MMS’
methodology is based solely on information from offshore and some Indian oil and gas
leases. The formula excludes onshore federal oil and gas, solid minerals, and geothermal
leases. MMS officials recognize the limitations of this measure and they have not used the
measure to manage program operations. MMS should stop using this measure to present
program results.

COMPLIANCE COVERAGE MEASURE IS MISLEADING

MMS measures the percentage of reported royalty dollars that it addresses with its
compliance activities. The compliance coverage measure calculates the percentage of
reported royalties from a production year for which MMS will have conducted compliance
work within a 3-year period. For example, the FY2005 performance goal was to complete
compliance work on 71 percent of calendar year 2002 reported royalties.

The compliance coverage measure is misleading because it weighs audits, compliance
reviews, and RIK analyses equally, when they provide very different levels of assurance.
We agree that there is a need to measure compliance coverage; however, we believe that
MMS needs to modify its measure to report these activities separately.

Further, the use of the compliance coverage measure has negatively affected the number of
companies and properties subjected to compliance work. The measure focuses solely on
royalty dollars, and as a result, many of the same companies and high dollar properties
have been reviewed year after year. For example, in the past 3 years, MMS has reviewed
only 9 percent of its properties and 20 percent of companies as illustrated in Figure 1
below. For the Onshore CAM alone, 92 percent of the properties selected for review in
FY2006 had been reviewed in the previous 2 years. As such, most companies and
properties are not likely to be selected for compliance work. MMS should consider
modifying its CAM Program strategy to ensure appropriate coverage of properties and


                                                    11
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
companies within a reasonable timeframe even if this results in a reduction in the overall
percentage of dollars covered.




                   Percentage of Leased Properties Reviewed    Percentage of Companies Reviewed
                           Royalty Years 2001-2003                  Royalty Years 2001-2003

                         Reviewed
                                                                 Reviewed
                           9%
                                                                   20%




                                                 Not                                     Not
                                              Reviewed                                Reviewed
                                                91%                                     80%




                   Figure 1. Compliance Coverage of Leased Properties and Companies

The measure also is not fully representative of all CAM Program activities because
compliance reviews that do not cover the entire royalty equation (known as “limited scope”
compliance reviews) are excluded. For example, the Indian CAM performs extensive
limited scope reviews to assess the reasonableness of reported prices. Accordingly, MMS
should have a performance measure for these types of activities.

EFFICIENCY OF COMPLIANCE ACTIVITIES NOT MEASURED

MMS should consider adding additional performance measures and goals to assess
efficiency of its operations. The IRS has multiple measures related to processing tax
returns and resolving compliance issues, which help evaluate performance. For example,
in FY2005 one IRS efficiency measure was calculated by dividing the total number of
examined tax returns by the number of employees. MMS could compute similar efficiency
rates for its own audits and compliance reviews.

In discussions with MMS management, MMS does recognize that the GPRA goals for
these particular issues need improvement, and MMS is reconsidering all of its current goals
and measures. To develop performance measures that are more useful and meaningful,
MMS needs to link work activities to CAM Program goals and establish better output and
outcome measures to serve as indicators of CAM Program performance.



                                                          12
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                               RECOMMENDATIONS
We recommend that the Director, Minerals Management Service:

    1. Develop and implement a plan to provide reliable data for managing and
       reporting on CAM Program operations. This plan should include:

             ¾ addressing the data reliability issues in CIM, GPRA databases, LVS,
               and GVS; and

             ¾ consolidating systems where appropriate.

MMS Response:

MMS concurred with our recommendations to address the data reliability issues and to
consider consolidating its various systems. MMS did not concur with the recommendation
in the draft report to develop activity-based costing information at the individual audit and
compliance review level. MMS explained that it manages a very large number of these
activities and providing this information would not be cost effective. MMS also stated that
it is appropriate to record qui tam settlement collections in the compliance tracking system.

OIG Analysis of MMS Response:

Based on MMS’ response, we deleted the draft report’s recommendation that activity-based
costing information should be provided at the individual audit and compliance review level.
While we believe that management would benefit from this information, we recognize that
maintaining such detail could be burdensome.

Although we agree that MMS should track qui tam settlements, the amounts should not be
included in the cost and benefit analyses for audits and compliance reviews. As stated in
the report, MMS should not take credit for qui tam settlements because these findings did
not result from MMS-initiated work.

    2. Strengthen the compliance review process by:

             ¾ including additional procedures to provide greater assurance
               concerning the reasonableness of:

                      •   volumes by requesting actual source documents for at least one
                          test month, or using inspection and enforcement data, or using
                          production data from LVS and GVS; and



                                                    13
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                      •   allowances by requesting actual source documents for at least
                          one test month, or using online sources (such as TariffMaster,
                          FERC, and PI Grid), or compiling historical trends;

             ¾ documenting the rationale for determining thresholds for pursuing
               potential underpayments;

             ¾ developing additional guidance for audit referrals and by tracking
               referral actions;

             ¾ notifying companies undergoing compliance reviews to give greater
               visibility to the CAM Program and to deter them from inaccurately
               reporting royalties;

             ¾ improving adherence to quality control procedures;

             ¾ using risk-based criteria for selecting companies for CAM Program
               coverage; and

             ¾ ensuring that state and tribal auditors have access to all necessary
               compliance review tools, including the CPT.

MMS Response:

MMS concurred with most of our proposals to strengthen the compliance review process.
However, MMS did not agree that it should request source documents for one test month
for the volume and allowance analyses, stating that alternative procedures of accessing
other information was, or would soon be, available. MMS also did not agree that it needs
to document the procedures related to the billing and collections process, because adequate
procedures were already in place.

MMS concurred with our recommendation to use a risk-based strategy for selecting
companies for CAM Program coverage, but the response did not specifically mention that
procedures would include inquiring whether companies have falsely reported information
to other federal agencies.

OIG Analysis of MMS Response:

We revised our recommendation to reflect that obtaining source documentation is only one
of several means to improve the review of volume and allowances. We agree that the other
sources identified should be sufficient to meet MMS’ need; however this information may
not always be available. In cases where MMS cannot obtain the necessary information on
volume and allowances from other existing sources, it should request actual source
documentation.


                                                    14
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
Because we found an instance where an underpayment had not been collected, we
originally recommended that CAM Program analysts establish procedures to follow up on
collections. MMS’ response correctly points out that the Financial Management Program
has responsibility for collecting identified underpayments and has written procedures for
billing and collecting. We therefore deleted this element of the recommendation to the
CAM Program.

Concerning MMS’ risk-based strategy, a company’s historical reporting record with other
federal agencies could be a valuable resource in identifying habitual noncompliance with
regulations and requirements. Accordingly, we ask that MMS affirm that it will
incorporate this step into its risk-based strategy.

    3. Revise performance measures to better reflect CAM Program operations.
       Specifically, MMS should:

             ¾ eliminate the compliance index performance measure;

             ¾ separate the compliance coverage measure for audits, compliance
               reviews, and royalty-in-kind compliance activity;

             ¾ develop separate performance measures for companies and properties
               subjected to compliance coverage; and

             ¾ develop performance measures to monitor the efficiency of audits and
               compliance reviews.

MMS Response:

MMS agreed to implement all recommendations regarding the performance measures
except our recommendation to separate the compliance coverage measure by the type of
compliance activity. MMS stated it would track the information internally along with some
of its limited scope compliance reviews, but would not report the measures separately to
the Department.

OIG Analysis of MMS Response:

The various compliance activities provide different levels of assurance. The compliance
coverage measure does not fully disclose the different levels of coverage and is therefore
misleading and easily manipulated by changing the ratio of the different compliance
activities. We continue to recommend that MMS separate the measure for audits,
compliance reviews, and royalty-in-kind.




                                                    15
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                                              Appendix 1


                        SCOPE AND METHODOLOGY
Our audit scope addressed compliance review activities from FY2000 to June 2006. It
included a review of MMS’ design and implementation of compliance reviews, as well as
its overall management of the CAM Program. Our scope included MMS’ CAM Program
and its four component offices. Our scope did not include the Royalty In-Kind program
activities.

To accomplish our objectives, we:

    ¾ Reviewed MMS’ policies and procedures for the compliance review program and
      performed walkthroughs of the compliance review process for each CAM.

    ¾ Held meetings with senior management and the four CAM managers to discuss how
      they implement their compliance review program and assess and monitor results.

    ¾ Gained an understanding of each CAM’s audit and compliance review strategy.

    ¾ Selected a haphazard sample of 20 compliance reviews to determine if MMS
      followed its policies and procedures.

    ¾ Gained an understanding of MMS’ information systems used to manage the CAM
      Program. We analyzed the data provided by the Compliance Information
      Management (CIM) system and the four GPRA databases and performed limited
      data verification steps that we considered necessary. Specifically we looked at data
      regarding:
          • collections resulting from audits and compliance reviews,
          • audit and compliance review completion data,
          • GPRA property and company information, and
          • obligations and disbursements for STRAC cooperative agreements.

    ¾ Reviewed information in MMS’ cooperative agreements with the states and Indian
      tribes for fiscal years 2001 through 2006 to determine the amount of funding
      provided to conduct audits.

    ¾ Reviewed other federal and private entities, including the Internal Revenue Service,
      that have comparable activities to MMS’ compliance reviews for the purpose of
      identifying best practices.

    ¾ Reviewed the Department of the Interior’s Annual Report on Performance and
      Accountability for fiscal years 2003 to 2005. The reports contained no reported
      weaknesses within the objectives and scope of our audit.
                                                    16
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
    ¾ Reviewed the Department of the Interior’s Strategic Plan for fiscal years 2003-2008
      to determine the goals and measures related to the CAM Program.

We performed our audit from April through June 2006 at MMS’ Minerals Revenue
Management offices in Lakewood, Colorado, and Washington, DC. We conducted our
audit in accordance with Government Auditing Standards issued by the Comptroller
General of the United States.

Concurrent with conducting this audit we also compiled information to answer additional
questions posed by the U.S. Senate Committee on Energy and Natural Resources. These
questions related to MMS’ auditor positions, the number of royalty audits initiated by
MMS, the adequacy of MMS’ resources, and the funding for state and tribal audit
organizations. Our answers are presented in Appendices 4 and 5.




                                                    17
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                                            Appendix 2



             MMS’ RESPONSE TO DRAFT REPORT




                                                   18
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                      [Ex. 2 (low) and 6]




                                                   19
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                              [Ex. 2 (low)]

            [Ex. 2 (low)]




                                                   20
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   21
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   22
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   23
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   24
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   25
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   26
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   27
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   28
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   29
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                   30
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                                            Appendix 3


                   STATUS OF RECOMMENDATIONS

   Recommendations                       Status                       Action Required

               1                 Management                  Consider the revisions made to the
                                 partially concurs -         recommendation and provide an
                                 additional                  action plan with target dates and
                                 information needed.         title of official responsible for
                                                             implementation.

               2                 Management                  Consider the revisions made to the
                                 partially concurs -         recommendation and provide an
                                 additional                  action plan with target dates and
                                 information needed.         title of official responsible for
                                                             implementation. Also, clarify
                                                             whether the risk-based strategy will
                                                             consider how companies have
                                                             complied with other federal
                                                             agencies.

               3                 Management                  Provide an action plan with target
                                 partially concurs -         dates and title of official
                                 additional                  responsible for implementation.
                                 information needed.         Also, reconsider the response
                                                             related to the separate reporting of
                                                             audit, compliance review, and RIK
                                                             compliance activities.




                                                   31
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                                                 Appendix 4

                     OIG RESPONSE TO QUESTIONS POSED BY THE
           U.S. SENATE COMMITTEE ON ENERGY AND NATURAL RESOURCES


Question 1. Has MMS reduced the number of auditor positions? If so, how many
positions have been cut? Why?

       MMS has reduced the number of auditor positions since 2000 as illustrated in
Figure 1 below. MMS reduced the number of its auditors located in the Compliance and
Asset Management (CAM) Program by 35 or 20.7 percent (from 169 to 134). During the
same period, the approximate number of state and tribal auditors funded by MMS
decreased by 10 or 8.5 percent (from 118 to 108) 3 . The total number of auditors
decreased by 45 or 15.7 percent (from 287 to 242).
                         350
                                                                                           STRAC
                                                                                           MMS
                         300     287
                                           277
                                            277
                                                     269        269
                                                                           263
                                                                                    248       242
                         250
                                118
    Number of Auditors




                                          120
                                                     118        117
                         200                                              118
                                                                                    115       108


                         150



                         100
                                169
                                          157        151        152       145                 134
                                                                                    133
                          50



                           0
                                2000      2001      2002       2003       2004     2005      2006
                                                            Fiscal Year

                                        Figure 1. Number of auditors for MMS and STRAC.

                           MMS provided the following three reasons for the decline in audit staff:

                               ¾ A steady growth of royalties being taken in-kind instead of in-value has
                                 resulted in personnel being transferred to the Royalty-In-Kind Program.



3
 MMS did not have data on the actual number of state and tribal auditors; however, it provided a
calculated estimate based on the number of hours provided by the state and tribal audit organizations.
                                                               32
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                               ¾ MMS reengineered its compliance processes and developed more efficient
                                 methods to augment the traditional audit approach. In particular, the
                                 recently developed compliance review process has enabled MMS to
                                 provide broader coverage with fewer resources.

                               ¾ MMS has not been fully funded for growth in pay and benefits, which has
                                 reduced overall staffing levels by nearly 9 percent since 2001.

Question 2. Has MMS reduced the number of audits that it undertakes? How
many audits were initiated in 2005 as compared to each of the five preceding years?

        Because of errors in MMS’ data, we were unable to compare audit initiation data
on an annual basis. Specifically, some audits started in FY2004 were inappropriately
identified as FY2005 audits. This occurred because MMS was implementing a new
tracking system. We were unable to reasonably adjust for this error. Therefore, for
purposes of answering this question, we combined the audits initiated figures into
biennial periods.

        The overall number of audits initiated by MMS (including state and tribal audit
organizations) decreased during this period as shown in Figure 2. MMS initiated 595
audits in FYs 2000/2001 and 461 audits in FYs 2004/2005, a decrease of 22 percent. We
did not evaluate the substance of the audits or audit work conducted.

                         700



                         600



                         500
      Number of Audits




                         400



                         300             595

                                                                     464                  461
                         200



                         100



                          0
                                      2000 - 2001              2002 - 2003             2004 - 2005

                                               Figure 2. Number of audits initiated.




                                                                33
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
Question 3. Does MMS have adequate resources to ensure that the royalties are
properly collected on Federal and Indian leases?

        We were unable to determine whether MMS has adequate resources to ensure that
royalties are properly collected because MMS lacked reliable management information to
allow us to conduct such an analysis. Our audit report disclosed the lack of reliable
information on compliance activities and the costs and benefits associated with those
activities.

         FY2006 funding for the CAM Program was $42.7 million supporting 380 staff.
MMS stated that it has sufficient resources to conduct an effective audit and compliance
program and added that its annual percentage goal for confirming "reasonable
compliance" of mineral royalties (e.g. 71 percent for FY2005) "constitutes a significant
level of compliance coverage.” The use of compliance reviews together with audits helps
MMS achieve this level of coverage. MMS further indicated that it would not be
practical to request full funding to enable 100 percent audit coverage of the royalty
dollars due to the extreme expense. MMS estimated that it would cost about $430
million and require over 4,000 staff to audit 100 percent of the royalties. MMS stated
that it is significantly covering royalties, but could increase coverage if more funding was
provided.

Question 4. Have funding levels for state and tribal cooperative agreements for
auditing been reduced? If so, please provide information regarding the amount of
the reductions. How has this affected the amount of production that can be audited
by states and tribes on an annual basis?

        Since FY2001 there have been small fluctuations in the overall planned budgets
for state and tribal cooperative agreements. The budgets increased from $9.1 million in
FY2001 to $9.5 million in FY2003 and then decreased to $9.0 million in FY2006. The
actual obligations were significantly lower than the budgets for some of those years
because the states and tribes did not always use all the funds allocated to them. For
example, in FY2001, $9.1 million was funded but only $7.7 million was actually
obligated. MMS stated that this occurred because, in the past, MMS obligated only about
85 percent of the funds based on the amount the states and tribes historically used.
However, MMS stated that it now obligates 100 percent of the budget. Figure 3 below
provides the budget and obligations for FY2001 to FY2006. FY2006 obligations are as
of June 2006.




                                                   34
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                      12,000
                                                                                                                                                       budget
                                                                                                                                                       obligations
                                      10,000                                                          9,537
                                                                                      9,261                   9,410    9,416
                                                                    9,083                                                                                8,963
                                                                                                                                       8,795   8,828

                                                                                              7,786                            7,578                             7,469
                                       8,000                                7,714
             Dollars (in thousands)



                                       6,000




                                       4,000




                                       2,000




                                          0
                                                                      2001                2002          2003             2004            2005              2006
                                                                                                               Fiscal Year

                                        Figure 3. Combined state and tribal budget and obligations.

        Although the combined funding level for all state and tribal activities has
remained relatively stable over the past 5 years, there have been significant fluctuations
in funding provided to individual states and tribes. For example, in FY2006 when MMS
reallocated funding amongst states and tribes, budgets for California and Colorado
decreased 21 percent and 25 percent, respectively. In contrast, budgets for Wyoming and
Louisiana increased 23 percent and 43 percent, respectively. MMS attributed this
reallocation to the need to cover higher risk properties. Appendix 5 illustrates the
budgets and obligations for each state and tribe for FY2001 to FY2006.

         We did not analyze the impact the reallocation of funding had on individual
states and tribes. Collectively, audits initiated by the states and tribes have increased
since FY2000 as shown in Figure 4.
                                                              350



                                                              300



                                                              250
                                           Number of Audits




                                                              200



                                                              150                                                                          305
                                                                                                                 283
                                                                                    260

                                                              100



                                                               50



                                                               0

                                                                               2000 - 2001               2002 - 2003                   2004 - 2005

                                                                      Figure 4. Number of STRAC audits initiated.
                                                                                         35
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                                                                                              Appendix 5

                                               State and Tribal Audit Organization Funding
                                         Total Original Budget (Planned Funding) and Obligations
                                                              FYs 2001-2006

Generally, budgets exceeded obligations for most organizations. However, in some
cases, obligations exceeded budget amounts because unspent funds in one year carried
forward to future years or adjustments were made for the payment of prior year
administrative costs. Additionally, for several states, the budget amounts were based on
the federal fiscal year while obligations were made based on the state’s fiscal year.

                                                                               States
                                       8,000
                                                                                                                              budget
                                                                               6,857 6,820                                    obligations
                                       7,000
                                               6,473           6,529                         6,542
                                                                                                             6,227   6,235        6,315
                                                                       5,726
                                       6,000
                                                       5,520                                         5,415
                                                                                                                                          4,893
              Dollars (in thousands)




                                       5,000


                                       4,000


                                       3,000


                                       2,000


                                       1,000


                                           0
                                                 2001            2002            2003          2004             2005                2006
                                                                                     Fiscal Year


                                                                               Tribes
                                       8,000

                                                                                                                              budget
                                       7,000
                                                                                                                              obligations

                                       6,000
            Dollars (in thousands)




                                       5,000


                                       4,000


                                                               2,733                         2,874
                                       3,000                                                                 2,568                 2,648 2,576
                                               2,610                           2,680 2,590                            2,593
                                                       2,194                                         2,163
                                                                       2,060
                                       2,000


                                       1,000


                                          0
                                                 2001            2002            2003          2004              2005                  2006
                                                                                     Fiscal Year



                                                                                    36
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                 State and Tribal Audit Organization Funding
                                                           Total Original Budget (Planned Funding) and Obligations
                                                                                FYs 2001-2006

                                                                                              Alaska
                                          2,000
                                                                                                                                               budget
                                          1,750                                                                                                obligations


                                          1,500


                                          1,250
         Dollars (in thousands)




                                          1,000



                                                   750



                                                   500


                                                                                                                                      181
                                                   250                                                                        154               170
                                                                                                                      97                                128
                                                                                                               85

                                                      0
                                                               2001            2002            2003             2004            2005              2006
                                                                                                      Fiscal Year

*Alaska did not enter into a cooperative agreement with MMS until 2004.

                                                                                             California
                                                   2,000


                                                                                                                                               budget
                                                   1,750
                                                                                                                                               obligations

                                                   1,500
                          Dollars (in thousands)




                                                   1,250                                      1,185
                                                             1,140
                                                                             1,068                    1,054           1,089
                                                                     1,026           1,037                                    1,017    1,017
                                                   1,000

                                                                                                                765                               800
                                                    750

                                                                                                                                                          546

                                                    500



                                                    250



                                                      0

                                                               2001            2002             2003                2004         2005                 2006
                                                                                                       Fiscal Year


                                                                                                      37
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                        State and Tribal Audit Organization Funding
                                                  Total Original Budget (Planned Funding) and Obligations
                                                                       FYs 2001-2006

                                                                                 Colorado
                                          2,000

                                                                                                                              budget
                                          1,750
                                                                                                                              obligations

                                          1,500
          Dollars (in thousands)




                                                    1,223                         1,221             1,157
                                          1,250
                                                                                          1,087
                                                                  1,047
                                          1,000             939                                                    972 972

                                                                           822
                                                                                                                                   725 725
                                           750
                                                                                                            594

                                           500


                                           250


                                              0
                                                      2001             2002            2003              2004          2005           2006
                                                                                           Fiscal Year




                                                                                 Louisiana
                                          2,000

                                                                                                                              budget
                                          1,750                                                                               obligations


                                          1,500
                 Dollars (in thousands)




                                          1,250



                                          1,000



                                           750



                                           500



                                           250
                                                                                                                                150    150
                                                    99            91              95               114    96
                                                            61            71            85                        85    85

                                             0

                                                     2001          2002           2003              2004          2005            2006
                                                                                          Fiscal Year




                                                                                          38
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                  State and Tribal Audit Organization Funding
                                            Total Original Budget (Planned Funding) and Obligations
                                                                 FYs 2001-2006



                                                                        Montana
                                    2,000
                                                                                                                     budget
                                    1,750                                                                            obligations


                                    1,500
           Dollars (in thousands)




                                    1,250


                                    1,000


                                     750


                                     500

                                               276         288                              302
                                                                          273     243                    263            272     272
                                     250                         184                                           187
                                                     104                                           105


                                        0
                                                2001        2002           2003              2004         2005           2006
                                                                                   Fiscal Year


                                                                       New Mexico
                                    2,000

                                                                                                                     budget
                                    1,750
                                                                                                                     obligations
                                                                                 1,573

                                    1,500
          Dollars (in thousands)




                                    1,250

                                                                         1,029             1,028                        1,048
                                                           978                                           987
                                    1,000     914
                                                     873                                           853         870
                                                                 835

                                     750



                                     500



                                     250                                                                                        201



                                       0

                                               2001         2002           2003         2004              2005            2006
                                                                              Fiscal Year


                                                                                  39
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                  State and Tribal Audit Organization Funding
                                                            Total Original Budget (Planned Funding) and Obligations
                                                                                 FYs 2001-2006

                                                                                         North Dakota
                                                  2,000

                                                                                                                                          budget
                                                  1,750                                                                                   obligations


                                                  1,500
                         Dollars (in thousands)




                                                  1,250


                                                  1,000


                                                   750


                                                   500                      433              440              456 436
                                                              411    401           400              412                   412    412        413
                                                                                                                                                  378


                                                   250


                                                        0
                                                               2001          2002             2003                2004     2005                 2006
                                                                                                     Fiscal Year


                                                                                          Oklahoma
                                        2,000

                                                                                                                                       budget
                                        1,750                                                                                          obligations


                                        1,500
       Dollars (in thousands)




                                        1,250



                                        1,000



                                                  750



                                                  500        415           427              420              426   386
                                                                                  402
                                                                    374                            374                   358    357
                                                                                                                                           320    320

                                                  250



                                                    0
                                                              2001          2002             2003             2004        2005               2006
                                                                                                    Fiscal Year


                                                                                                    40
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                    State and Tribal Audit Organization Funding
                                              Total Original Budget (Planned Funding) and Obligations
                                                                   FYs 2001-2006

                                                                          Texas
                                      2,000
                                                                                                               budget
                                      1,750                                                                    obligations


                                      1,500
             Dollars (in thousands)




                                      1,250



                                      1,000



                                        750



                                        500



                                        250     209
                                                            172         173    154   179
                                                                  142                            151    151
                                                      110                                  122                     123
                                                                                                                          73

                                          0
                                                 2001        2002        2003         2004        2005              2006
                                                                            Fiscal Year

                                                                           Utah
                                      2,000
                                                                                                                 budget
                                      1,750                                                                      obligations


                                      1,500
        Dollars (in thousands)




                                      1,250



                                      1,000



                                       750


                                                494         511   490
                                                      470                459   449                                  457
                                       500                                                 427    429    429
                                                                                     349                                   343

                                       250



                                         0
                                                 2001        2002         2003         2004        2005              2006
                                                                             Fiscal Year

                                                                        Wyoming
                                                                                41
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                             State and Tribal Audit Organization Funding
                                       Total Original Budget (Planned Funding) and Obligations
                                                            FYs 2001-2006


                               2,000
                                                                                                                       1,836
                                        budget                                                                                 1,757
                               1,800
                                        obligations                                    1,681
                                                                       1,561                                   1,574
                               1,600                   1,514

                                                                               1,389                   1,412
                               1,400                           1,342
                                       1,291
      Dollars (in thousands)




                                                                                               1,210
                               1,200           1,162


                               1,000

                                800

                                600

                                400

                                200

                                  0
                                         2001            2002            2003            2004            2005            2006
                                                                               Fiscal Year




                                                                               42
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                          State and Tribal Audit Organization Funding
                                                                    Total Original Budget (Planned Funding) and Obligations
                                                                                         FYs 2001-2006

                                                                                                         Blackfeet
                                                          1,000
                                                                                                                                                    budget
                                                            900
                                                                                                                                                    obligations

                                                            800


                                                            700
                                 Dollars (in thousands)




                                                            600


                                                            500


                                                            400
                                                                          338                                               330
                                                                                            320                                                        290
                                                                                                           288                          277
                                                            300                                    243            256                         267            275
                                                                                 252

                                                                                                                                  197
                                                            200


                                                            100


                                                                0
                                                                           2001              2002              2003         2004         2005           2006
                                                                                                                  Fiscal Year



                                                                                                           Crow
                                        1,000

                                                                                                                                                    budget
                                                          900
                                                                                                                                                    obligations

                                                          800


                                                          700
        Dollars (in thousands)




                                                          600


                                                          500


                                                          400


                                                          300


                                                          200
                                                                                                                 132
                                                                                       94                 86               88
                                                          100                                 70
                                                                     48     48                                                    46    54    54


                                                           0

                                                                      2001              2002               2003             2004         2005           2006
                                                                                                                  Fiscal Year

*The cooperative agreement with Crow was terminated in 2005.

                                                                                                                   43
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                        State and Tribal Audit Organization Funding
                                                                  Total Original Budget (Planned Funding) and Obligations
                                                                                       FYs 2001-2006

                                                                                             Jicarilla
                                                        1,000

                                                                                                                                     budget
                                                         900
                                                                                                                                     obligations
                                                         800


                                                         700
                               Dollars (in thousands)




                                                         600


                                                         500


                                                         400


                                                         300
                                                                                                   195
                                                         200       157    141    162         163             162   170         158       142   142
                                                                                       151
                                                                                                                         136

                                                         100


                                                              0
                                                                    2001           2002        2003           2004        2005            2006
                                                                                                    Fiscal Year

                                                                                             Navajo
                                            1,000
                                                                   budget
                                                        900
                                                                   obligations
                                                                                                                                         828
                                                                                                                                               813
                                                                                                                               777
                                                        800                                                 776
                                                                                                                         760
                                                                                 734
                                                                  699                        699                   681
                                                        700
      Dollars (in thousands)




                                                                                                   603
                                                        600
                                                                                       534
                                                                         501
                                                        500


                                                        400


                                                        300


                                                        200


                                                        100


                                                          0
                                                                   2001           2002        2003         2004           2005            2006
                                                                                                 Fiscal Year

                                                                                                    44
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                   State and Tribal Audit Organization Funding
                                                             Total Original Budget (Planned Funding) and Obligations
                                                                                  FYs 2001-2006

                                                                                       Northern Ute
                                         1,000
                                                                                                                                        budget
                                                   900                                                                                  obligations

                                                   800


                                                   700
       Dollars (in thousands)




                                                   600


                                                   500


                                                   400                                                    369
                                                                                         354
                                                                                                                           330    330       330
                                                              305                               315
                                                                           301
                                                   300                                                                                            280
                                                                                                                265
                                                                     230

                                                   200                           171


                                                   100


                                                     0
                                                               2001         2002          2003             2004                 2005         2006
                                                                                                 Fiscal Year


                                                                                       Southern Ute
                                                   1,000
                                                                                                                  budget
                                                    900                                                           obligations

                                                    800


                                                    700
                          Dollars (in thousands)




                                                    600
                                                                                                                                                  528
                                                                     508   485
                                                    500        475                              472
                                                                                                          457                              445
                                                                                 402                            384        384    384
                                                                                          396
                                                    400


                                                    300


                                                    200


                                                    100


                                                         0
                                                                2001         2002          2003         2004                    2005         2006
                                                                                              Fiscal Year


                                                                                                 45
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                      State and Tribal Audit Organization Funding
                                                Total Original Budget (Planned Funding) and Obligations
                                                                     FYs 2001-2006

                                                                            Shoshone Arapaho
                                        1,000

                                                        budget
                                         900
                                                        obligations

                                         800


                                         700
               Dollars (in thousands)




                                         600


                                         500


                                         400


                                         300                                                                  265   262
                                                                                                  260                       251   251
                                                                                  247
                                                                                        220
                                                 187                  189                               183
                                         200            168                 155


                                         100


                                           0

                                                  2001                 2002        2003            2004        2005          2006
                                                                                         Fiscal Year

                                                                            Ute Mountain Ute
                                        1,000
                                                                                                                          budget
                                         900                                                                              obligations

                                         800


                                         700
         Dollars (in thousands)




                                         600


                                         500
                                                                      448         447
                                                                                                  431
                                                  400                                   397
                                         400                                                                  361   361     362
                                                         346                335
                                                                                                                                  287
                                         300
                                                                                                        236

                                         200


                                         100


                                            0
                                                   2001                 2002        2003           2004        2005          2006
                                                                                         Fiscal Year




                                                                                         46
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                                              Appendix 6



                                 RELATED REVIEWS
Reports Issued by the Office of Inspector General

During the last 5 years, we issued three reports that relate to our audit objectives and scope.

¾     “Audit of Oversight Performed by Minerals Management Service of Non-
      Federal Auditors,” Report No. 2003-I-0061, August 2003.

      We concluded that MMS' oversight of non-federal auditors was reasonably effective
      to ensure states and tribes complied with the Government Auditing Standards.
      However, we found that (1) some cooperative agreements contained outdated
      provisions, (2) audits of Jicarilla tribal leases were not covered by internal quality
      control reviews, and (3) neither the MMS internal quality control reviews nor the
      state peer reviews had a formal follow-up process.

      The MMS Director agreed with three of the four recommendations and with all five
      of the suggested improvements.

¾      “Audit of the Minerals Management Service Audit Offices,” Report No. 2003-I-
       0023, March 2003.

       During our audit, MMS was designing and implementing a re-engineered compliance
       process. The new process shifted the focus from auditing on a company basis
       (auditing all of a company's leases at the same time) to a property basis (auditing
       leases grouped in one producing geographic location). Overall, we concluded that
       MMS’ internal quality control system was not sufficient and that MMS’ audits did
       not always comply with the Government Auditing Standards. Specifically, we found
       that:

        •    MMS' internal audit process was ineffective because it lacked accountability,
             did not cover all audit work, and was incomplete.

        •    MMS auditors recreated a set of workpapers that had been lost.

        •    Not all MMS auditors met their continuing education requirements.

      MMS generally agreed with the report's findings and concurred with all
      recommendations.




                                                    47
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
¾      “Evaluation of Vulnerabilities to Underreporting: Royalty-in-Value Versus
       Royalty-in-Kind,” Report No. 2002-I-0044, August 2002.

       At the request of the Deputy Secretary, we performed this evaluation to determine
       whether MMS' royalty-in-value (RIV) program or its royalty-in-kind (RIK) program
       was more vulnerable to underreporting. We concluded that the RIV program was
       more vulnerable because the lessor established the basis for product valuation as well
       as the transportation and processing costs. The RIK program was less vulnerable
       because MMS received actual proceeds from product sales and paid actual
       transportation and processing costs. Nevertheless, RIV was preferable in certain
       instances. In addition to these findings, we concluded that MMS could improve its
       controls over the RIK program in the areas of gas imbalances, credit lines of
       approval, manual data entry, and sales contract limitations.

       MMS officials generally concurred with our conclusions and had initiated actions to
       address the control issues noted in our report.

Reports Issued by the Government Accountability Office (GAO)

During the last 5 years, GAO issued three reports that relate to MMS’ CAM Program.

¾      “Royalty Revenues: Total Revenues Have Not Increased at the Same Pace as
       Rising Oil and Natural Gas Prices due to Decreasing Production Sold,” Report
       No. GAO-06-786R, June 2006

       GAO found that federal and Native American royalty revenues did not increase at the
       same pace as oil and natural gas prices between 2001 and 2005 principally because
       the volumes upon which royalties are based declined substantially during this time.

¾      “Mineral Revenues, Cost and Revenue Information Needed to Compare
       Different Approaches for Collecting Federal Oil and Gas Royalties,” Report No.
       GAO-04-448, April 2004.

       GAO reported that although data was limited, RIK realized substantial administrative
       cost savings over RIV. Further, MMS used these cost savings to audit additional
       RIV leases but could not quantify the benefit. Also, MMS had not yet implemented
       the recommendations contained in GAO’s 2003 report. GAO suggested that
       Congress consider directing MMS to establish a systematic evaluation of the revenue
       impacts of all future RIK sales and quantify overall changes in the administration of
       royalty collections. MMS agreed with the report’s conclusions and
       recommendations.




                                                    48
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
¾      “Mineral Revenues, A More Systematic Evaluation of the Royalty-in-Kind
       Pilots is Needed,” Report No. GAO-03-296, January 2003.

       GAO reported that MMS had made substantial progress in establishing an RIK
       program, but that more work was needed before the program could be adequately
       assessed and expanded. In particular, MMS needed to establish clear strategic
       objectives linked to statutory requirements and to collect the necessary information to
       enable effective monitoring and evaluation of the RIK program. MMS generally
       agreed with the reports conclusions and recommendations.




                                                    49
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
                                                                                              Appendix 7


                 ACRONYMS AND ABBREVIATIONS

AFMSS                                  Automated Fluid Minerals Support System
BLM                                    Bureau of Land Management
CAM                                    Compliance and Asset Management
CIM                                    Compliance Information Management
CPT                                    Compliance Program Tools
FERC                                   Federal Energy Regulatory Commission
FY                                     Fiscal Year
GAO                                    Government Accountability Office
GVS                                    Gas Verification System
GPRA                                   Government Performance and Results Act
IRS                                    Internal Revenue Service
LVS                                    Liquid Verification System
MMS                                    Minerals Management Service
OIG                                    Office of Inspector General
PI Grid                                Petroleum Information Grid
RIK                                    Royalty-in-kind
RIV                                    Royalty-in-value
STRAC                                  State and Tribal Royalty Audit Committee




                                                    50
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (low) and
(b)(6) of the Freedom of Information Act.
